HHS/OIG-Audit--"Allopathic Medicine Health Professions Student Loans Program at the Univeristy of Florida, Gainesville, Florida, (A-05-98-00035)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at the University
of Florida, Gainesville, Florida, (A-05-98-00035)
September 3, 1998
Complete Text of Report is available in PDF format
(77 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at the University of Florida.
The HPSL program was implemented through the Public Health Service Act. The
Health Resources and Services Administration (HRSA) has overall management responsibilities
for the program at the Federal level.
We determined that the University was appropriately using HPSL funds to provide
loans to eligible medical students and was appropriately administering the HPSL
funds. However, we identified one account which should have been classified
as an uncollectible loan. We are recommending that the University reimburse
the HPSL fund an amount of $8,226 for the uncollectible HPSL loan.